No. 20-637

IN THE

pìéêÉãÉ=`çìêí=çÑ=íÜÉ=råáíÉÇ=pí~íÉë=
_______________
DARRELL HEMPHILL,
Petitioner,
v.
STATE OF NEW YORK,
Respondent.
_______________
On Writ of Certiorari
to the Court of Appeals of New York
_______________
BRIEF OF THE BRONX DEFENDERS,
NEIGHBORHOOD DEFENDER SERVICE OF
HARLEM, BROOKLYN DEFENDER SERVICES,
QUEENS DEFENDERS, AND NEW YORK COUNTY
DEFENDER SERVICE AS AMICI CURIAE
IN SUPPORT OF PETITIONER
_______________
AIMEE CARLISLE
ILONA COLEMAN
DEFNE OZGEDIZ
SAUL ZIPKIN
THE BRONX DEFENDERS
360 East 161st Street
Bronx, NY 10451

DAVID DEBOLD
Counsel of Record
MATTHEW GUICE AIKEN
TESSA GELLERSON*
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Avenue, N.W.
Washington, D.C. 20036
(202) 955-8500
ddebold@gibsondunn.com
JOEL M. COHEN
NINA MEYER
GIBSON, DUNN & CRUTCHER LLP
200 Park Avenue
New York, NY 10166

[Additional Counsel Listed on Inside Cover]

ELIZABETH FISCHER
ALICE FONTIER
NEIGHBORHOOD DEFENDER SERVICE
OF HARLEM
317 Lenox Ave
New York, NY 10027

LISA SCHREIBERSDORF
BROOKLYN DEFENDER SERVICES
177 Livingston Street,
7th Floor
Brooklyn, NY 11201

HETTIE POWELL
QUEENS DEFENDERS
118-21 Queens Blvd
Suite 212
Forest Hills, NY 11375

SERGIO DE LA PAVA
NEW YORK COUNTY DEFENDER
SERVICE
100 William St
New York, NY 10038

Counsel for Amici Curiae

i
TABLE OF CONTENTS
Page
INTEREST OF AMICI CURIAE ................................1
SUMMARY OF ARGUMENT .....................................3
ARGUMENT ...............................................................4
I.

New York’s Forfeiture Rule Undermines
The Confrontation Clause. ...............................4

II. New York’s Forfeiture Rule Prevents The
Accused From Presenting A Valid Defense. ..17
III. New York’s Forfeiture Rule Permits
Unreliable Statements To Be Admitted
Without Cross-Examination. .........................22
CONCLUSION ..........................................................29

ii
TABLE OF AUTHORITIES
Page(s)
CASES
Brookhart v. Janis,
384 U.S. 1 (1966) ......................................................... 7
California v. Green,
399 U.S. 149 (1970) ............................................. 27, 29
Carson v. Peters,
42 F.3d 384 (7th Cir. 1994) ....................................... 21
Crawford v. Washington,
541 U.S. 36 (2004) ................................................... 4, 7
Davis v. Alaska,
415 U.S. 308 (1974) ..................................................... 3
Douglas v. Alabama,
380 U.S. 415 (1965) ................................................... 27
Giles v. California,
554 U.S. 353 (2008) ............................................. 27, 28
Kirby v. United States,
174 U.S. 47 (1899) ....................................................... 7
Lee v. Illinois,
476 U.S. 530 (1986) ................................................... 27
Lilly v. Virginia,
527 U.S. 116 (1999) ....................................... 20, 26, 28
Maryland v. Craig,
497 U.S. 836 (1990) ............................................. 22, 29

iii
Mattox v. United States,
156 U.S. 237 (1895) ................................................... 27
Napue v. People of State of Ill.,
360 U.S. 264 (1959) ................................................... 18
Ohio v. Clark,
576 U.S. 237 (2015) ................................................... 28
People v. Hemphill,
103 N.Y.S.3d 64 (N.Y. App. Div. 2019) ................. 6, 12
People v. Reid,
971 N.E.2d 353 (NY 2012) ........................ 5, 13, 14, 15
Roberts v. Russell,
392 U.S. 293 (1968) ..................................................... 7
Sinkfield v. Brigano,
487 F.3d 1013 (6th Cir. 2007) ................................... 20
United States v. Taylor,
848 F.3d 476 (1st Cir. 2017) ...................................... 21
Williamson v. United States,
512 U.S. 594 (1994) ................................................... 27
OTHER AUTHORITIES
Accomplice Testimony Under Contingent Plea
Agreements, 72 Cornell L. Rev. 800 .......................... 20
Hakeem Ishola, Of Confrontation: The Right Not
to be Convicted on the Hearsay Declarations of an
Accomplice, 1990 Utah L. Rev. 855 (1990) ............... 20

iv
Scott C. Pugh, Checkbook Journalism, Free
Speech, and Fair Trials, 143 U. Pa. L. Rev. 1739
(1995) ......................................................................... 23
Yvette A. Beeman, Accomplice Testimony Under
Contingent Plea Agreements, 72 Cornell L. Rev.
800 (1987) .................................................................. 19
TREATISES
21A Charles Alan Wright & Arthur R. Miller,
Federal Practice & Procedure Evidence § 5072.1
(2d ed. 2020) .............................................................. 16

1
INTEREST OF AMICI CURIAE 1
Amicus The Bronx Defenders (“BxD”) is a nonprofit provider of innovative, holistic, client-centered
criminal defense, family defense, civil legal services,
and social work support to indigent people in the
Bronx. Each year, BxD’s advocates defend thousands
of low-income Bronx residents in criminal, civil,
family, and immigration cases and reach hundreds
more through outreach programs and community
legal education.
Amicus Neighborhood Defender Service of Harlem
(“NDS”) is a community-based public defender
office. Since 1990, NDS has sought to improve the
quality and depth of criminal, family, and civil defense
for those in Harlem and Northern Manhattan who
cannot afford an attorney. NDS accomplishes this by
providing holistic, cross-practice representation to our
clients.
Amicus Brooklyn Defender Services (“BDS”) is a
full-service public defender organization that provides
multi-disciplinary and client-centered criminal
defense, family defense, immigration, and civil legal

1

Pursuant to this Court’s Rule 37.6, amici states that this
brief was not authored in whole or in part by counsel for any
party, and that no person or entity other than amici, its
members, or its counsel made a monetary contribution intended
to fund the preparation or submission of this brief. The parties
have consented to the filing of our amici curiae brief in accord
with Supreme Court Rule 37.3.

2
services for nearly 30,000 people in Brooklyn every
year. In addition to zealous legal defense, BDS
provides a wide range of additional services to meet
peoples’ unique needs, including social work support,
help with housing, benefits, education and
employment, and advocacy targeting systems and
laws that implicate their rights. BDS’s Criminal
Defense Practice of approximately 140 criminal
defense attorneys and 120 social workers,
investigators, paralegals, and other non-attorney staff
currently represents over 20,000 people facing
criminal prosecution in the criminal courts in
Brooklyn.
Amicus Queens Defenders represents low-income
people accused of crimes in Queens, New York who
cannot otherwise afford an attorney. Since 1996,
Queens Defenders has represented over 450,000
individuals accused of crimes, including serious
offenses such as homicides, youths charged with
crimes, and individuals facing collateral consequences
throughout the borough of Queens. Queens Defenders
provides client-centered services that include and
exceed direct representation in the criminal case, such
as advising clients regarding program-based support,
treatment courts, and other alternatives to
incarceration, as well as educating adults and youths
throughout the Queens community regarding their
rights in criminal, civil, immigration, and other
proceedings. Queens Defenders also aims to reduce

3
the numbers of people entangled in the criminal legal
system and reduce the impact of the system on the
Queens community by providing those in Queens with
additional support regarding public housing,
employment, education, and public benefit resources.
Amicus New York County Defender Services is a
trial-level public defender office in New York City.
Since 1997, the office has conducted thousands of
criminal jury trials in State court.
Amici submit this brief because the issue
presented in the case—whether, and under what
circumstances, “opening the door” to responsive
evidence also forfeits an accused’s right to exclude
evidence otherwise barred by the Confrontation
Clause—significant affects Amici’s representation
and other advocacy on behalf of indigent individuals.
SUMMARY OF ARGUMENT
This Court has held that “[c]ross-examination is
the principal means by which the believability of a
witness and the truthfulness of his testimony are
tested” and “reveal[s] possible biases, prejudices, or
ulterior motives of the witness as they may relate
directly to issues or personalities in the case at hand.”
Davis v. Alaska, 415 U.S. 308, 316 (1974). New York’s
forfeiture-by-opening-the-door rule violates the
Confrontation Clause because it precludes this
testing, through cross-examination, of vital
testimonial statements.
It also undermines, in

4
multiple ways, the accused’s ability to present a valid
defense. This includes forcing the accused to decide
whether to forego even suggesting a basis for acquittal
lest it lead to the prosecution putting forward
testimonial statements from persons who will not be
witnesses at the trial.
Co-defendant and accomplice statements are
fraught with indicia of unreliability, yet New York’s
forfeiture-by-opening-the-door rule permits prosecutors to introduce those statements without giving the
accused the opportunity to subject them to adversarial
examination. As a result, New York’s rule deprives
juries of sufficient means to assess the credibility of
evidence on material issues, and it allows prosecutors
to present the exact type of proof the Confrontation
Clause was designed to prevent: testimonial witness
statements that have not been tested by crossexamination.
ARGUMENT
I.

New York’s Forfeiture Rule
Undermines The Confrontation
Clause.

This Court has made clear that the Confrontation
clause “commands, not that evidence be reliable, but
that reliability be assessed in a particular manner: by
testing in the crucible of cross-examination.”
Crawford v. Washington, 541 U.S. 36, 61 (2004). New
York’s forfeiture-by-opening-the-door rule guts that

5
promise. It lets in testimonial evidence that would
otherwise be inadmissible when, in a judge’s
estimation, its exclusion is “unfair[]” to the
prosecution. People v. Reid, 971 N.E.2d 353, 357 (NY
2012). That overly broad formulation forces the
accused to choose between presenting an effective
defense and ensuring that the prosecution presents
only testimonial statements that have been tested by
cross-examination. In doing so, New York’s rule
imposes an unjustified risk of significant harm to the
accused’s ability to present a compelling defense and
opens the floodgates to precisely the types of
unreliable evidence the Confrontation Clause was
designed to exclude.
New York’s forfeiture-by-opening-the-door rule,
with its assumption that the prosecution’s evidence is
reliable, flips the principles undergirding the
Confrontation Clause on their head. Under New
York’s rule, judges ask (1) “whether, and to what
extent, the evidence or argument said to open the door
is incomplete and misleading,” and (2) “what if any
otherwise inadmissible evidence is reasonably
necessary to correct the misleading impression.”
Reid, 971 N.E.2d at 356 (citation omitted). The
baseline assumption of this inquiry is that an
underlying “truth” has been obscured or undermined,
and the inquiry’s very formulation has the
prosecution on the side of presenting the truth while
casting the defense as an enemy of the truth. This

6
ignores an animating principle underlying the
Confrontation Clause—deep-seated mistrust of
government—and the core premise that testimonial
statements are not reliable if untested through crossexamination.
This case illustrates the problems that flow from
New York’s distortion of the Confrontation Clause.
Petitioner introduced at trial government-procured
evidence: shortly after the shooting, the police
recovered a 9 millimeter cartridge on Nicholas
Morris’s nightstand. Yet the court viewed Petitioner’s
presentation of this evidence as “misleading” because
it contradicted the prosecution’s chosen narrative at
Petitioner’s trial that Morris was not the shooter.
Even though it was unquestionably accurate that
police found a 9 millimeter cartridge on the
nightstand in Morris’s room, the court held that the
defense’s decision to share the police’s discovery with
the jury opened the door to the introduction of
Morris’s plea allocution “to correct th[e] misleading
impression.” People v. Hemphill, 103 N.Y.S.3d 64, 71
(N.Y. App. Div. 2019). What supposedly made the
presentation of this evidence misleading was that
Morris had been unwilling to admit he possessed a
weapon that could fire the ammunition. But the
evidence is only misleading if one starts, as the court
erroneously did, with the assumption that Petitioner
is guilty and Morris is not.

7
What is more, Morris’s plea allocution—which the
court had to assume was accurate, complete, and
truthful if the idea was to “correct” a “misleading
impression” by introducing it—is precisely the kind of
evidence the Confrontation Clause was designed to
exclude because its reliability is untested. See Kirby
v. United States, 174 U.S. 47, 54–56 (1899)
(Confrontation Clause bars admission of accomplices’
guilty pleas); cf. Roberts v. Russell, 392 U.S. 293, 293–
95 (1968) (codefendant’s confession); Brookhart v.
Janis, 384 U.S. 1, 4 (1966) (same). A plea allocution,
especially (as here) on a detail that does not qualify as
a statement against interest, is an extrajudicial
testimonial statement with none of the traditional
hallmarks of reliability.
Endorsing New York’s rule would have farreaching implications. Under this rule, any attempt
to demonstrate one’s innocence, including by simply
holding the prosecution to its burden of proving guilt
beyond a reasonable doubt, could be seen as “contrary”
to the evidence of guilt that a prosecutor seeks to
admit. To take a famous example from the 1603 trial
of Sir Walter Raleigh, New York would view Raleigh’s
protestations of innocence as “contrary” to Lord
Cobham’s extrajudicial confession thereby allowing
for the admission of Lord Cobham’s statements. See
Crawford, 541 U.S. at 44–45 (detailing the events of
Raleigh’s trial).

8
Three hypotheticals, based upon the experience of
amici, illustrate the breadth and unfairness of New
York’s rule.
Hypothetical 1: A, B, and C are charged with
selling drugs. According to the prosecution, a police
informant involved in a sting operation (a “buy and
bust”) approached A and B, who were sitting on a park
bench. The informant says he asked where he could
find heroin; that A pointed to C, who was standing
nearby, and said “he can help you out”; that B walked
the informant over to C; and that C sold the informant
a packet of heroin. Police officers moved in after
seeing C and B exchange money and drugs, and they
arrested A, B, and C.
B and C plead guilty to a lesser charge of
attempted criminal sale of a controlled substance,
admitting in their allocutions that they acted in
concert with each other and with A to sell a controlled
substance. A goes to trial. The informant testifies,
but B and C do not. A’s defense is that, although he
was sitting on the bench with B when the informant
approached, A did not speak with the informant, nor
did A point to C. Rather, only B interacted with the
informant. After a police officer testifies that he saw
A speak with the informant and point to C, defense
counsel confronts the officer with his police report,
which states that B spoke with the informant and B
pointed to C. The officer further admits that his

9
report makes no mention of A saying or doing
anything.
Under the New York rule, a court could permit the
prosecution to elicit from the same officer on redirect
that B and C, in their later allocutions, both stated
that A participated in the sale. The basis for
admitting this testimony would be that A opened the
door by eliciting from the government’s own witness
accurate information that was inconsistent with the
admissions of B and C that they acted in concert with
A. The defense would be deemed “misleading” in that
it challenged the government’s chosen version of
events. Under New York law, B’s and C’s testimonial
statements could be admitted without A being able to
confront B and C with their motivations to lie and
implicate A. The same result would hold if, instead,
A had called to the stand a different witness who
testified that he watched the interaction and did not
see A say or do anything.
Hypothetical 2: D and E are charged with armed
robbery. The prosecution alleges that E pointed a gun
at the victim while D forcibly took her purse on the
street at night. Police, who were a block away,
responded immediately upon hearing the victim
yelling for help. The police quickly apprehended E,
who was running alone from the scene with a BB gun
in his hand. The victim identified E to the police
within two minutes of the incident, and the police
immediately took E into custody. D, however, was

10
arrested only several weeks later, after the victim
passed him on the street and called the police, saying
she recognized him as the person who had taken her
purse on the night of the robbery. Nothing else links
D to the crime.
E faced a minimum of 5 years in prison if
convicted of first degree robbery. One year after E
was detained on that charge, the prosecution makes a
plea offer of robbery in the third degree with a
sentence of one year, but requires that E implicate his
claimed accomplice. E remembers having seen D in
the neighborhood before the robbery. E also knows
that D has been charged based on the victim’s
identification. E tells the prosecution in his plea
allocution that D was the accomplice. E claims, for
the first time ever, that they met a month before the
robbery and planned it together. By pleading guilty
and implicating D, E secures his immediate release
from jail.
D goes to trial with a defense of mis-identification,
maintaining that he was not the person who
participated in the robbery with E. D testifies that he
was not present when the victim was robbed and that
he does not even know E. Because this was contrary
to E’s allocution, the court rules that D’s testimony
was misleading and opened the door to admitting E’s
allocution stating that E and D knew each other and
planned the robbery together. The evidence comes in

11
without D being able to confront E with his strong
motive to falsely implicate D.
Hypothetical 3: The State charges F and G,
roommates, with felony murder after G shoots a
robbery victim, killing her. The charge carries a
minimum sentence of 15 years, and a maximum of life.
When the police interrogate F, she admits to
participating in the robbery plan but denies knowing
that G had a gun and does not know where G got it.
G offers to plead guilty to first degree
manslaughter if the sentence will not exceed 12 years.
G’s lawyer tells the prosecution that F and G had
discussed the robbery plan, that F told G he needed to
bring a gun, and that F encouraged G to use it after
the victim resisted. The prosecution agrees to the
manslaughter plea if G will include that version of
events in his allocution. G’s plea guarantees him
three years less than the minimum he faced had he
been convicted after trial.
F goes to trial and the prosecution introduces her
police statement in evidence against her. Consistent
with the statement, A asserts a statutory affirmative
defense: F did not aid in the commission of the
murder because F did not have a gun; did not know
that G was armed or where G got the gun; and the
plan was only to rob the victim. The court then allows
the prosecution to counter F’s defense by admitting
G’s plea allocution, even though that testimonial

12
statement is untested through cross-examination.
Under New York law, F forfeits her Confrontation
Clause rights by adopting the government’s evidence
to support her affirmative defense.
The outcome in each hypothetical inverts both the
presumption of innocence that undergirds our judicial
system and the presumption of unreliability of
untested testimonial statements that animates the
Confrontation Clause.
To make matters worse, New York’s forfeiture-byopening-the-door rule stamps the imprimatur of the
judiciary on this topsy-turvy state of affairs,
compounding the very mistrust of government that
the Confrontation Clause was designed to combat.
And this rule asks judges to make not one, but two
fact-laden decisions. The first is to referee whether a
valid defense is somehow misleading, and the second
is to assess the “reasonabl[e] necess[ity]” of
introducing otherwise inadmissible evidence to
combat that “misleading impression.” Hemphill, 103
N.Y.S. 3d at 71. As this case illustrates, in making
this assessment, judges will often query mid-trial
whether an accused’s challenging of the prosecution’s
case is “unfair” to the prosecution. Each step of this
analysis, and any ultimate assessment of fairness, is
ripe for reasonable disagreement (at best) and
infiltration of more pernicious biases (at worst).
These value-steeped decisions tend to erode both
predictability and the public’s trust in the judiciary

13
because of the inconsistencies that flow from
application of a test that lacks clear guideposts. New
York’s forfeiture-by-opening-the-door rule distorts the
fundamental precepts of the criminal trial by allowing
the prosecution to design the universe of facts and
then present that selectively chosen narrative to the
jury. The judiciary then holds this version of events
to be presumptively true and protects the government
when the defense attempts to challenge this
narrative.
This distortion of the fundamental precepts of the
criminal trial is laid bare by People v. Reid, 971
N.E.2d 353 (NY 2012), the case relied upon by the
lower court in finding that Petitioner had forfeited his
right of confrontation because his defense created a
“misleading impression.” Reid makes clear that to
find a “misleading impression” the court accepts, in
the midst of a trial, that the prosecution’s narrative is
accurate and finds any evidence that contradicts that
narrative misleading.
The result is that the
prosecution may put forward its own unreliable
evidence, without subjecting the correction of the
supposedly misleading impression to crossexamination.
In Reid, a murder case, defense counsel sought to
show that the police investigation had been
inadequate and that another individual (McFarland)
had actually committed the murder. 971 N.E.2d at
356. Reid’s counsel elicited testimony from a witness

14
for the prosecution who stated Reid had told the
witness that McFarland and another individual
(Joseph) were with him at the time of the murder. Id.
at 354. This witness also testified that he had told the
police about McFarland but McFarland had not been
arrested. Id. at 355. Reid’s counsel then called a
federal agent to the stand who had been involved in
the investigation, yet whom the prosecution declined
to call as its own witness. The federal agent testified
that during the course of his investigation he learned
that McFarland was involved in the shooting. Id.
Reid’s counsel questioned the federal agent about the
source of that information, including whether there
had been multiple sources. Id.
During cross-examination by the prosecution, the
federal agent testified that the source was the first
witness for the prosecution who had heard about the
shooting second-hand but had not witnessed it. Id.
The federal agent then testified that he had also
received direct eyewitness testimony about the
shooting from someone who stated McFarland was not
there. Id. The eyewitness in question was Joseph—
who was unavailable and was therefore not crossexamined. Reid’s counsel objected to the admission of
Joseph’s testimonial statement through the federal
agent, but the County Court overruled the objection,
noting that the door had been opened. Id.
The Court of Appeals affirmed, reasoning that “by
eliciting . . . information that McFarland was involved

15
in the shooting, by suggesting that more than one
source indicated that McFarland was at the scene,
and by persistently presenting the argument that the
police investigation was incompetent,” the accused
“opened the door to the admission of the testimonial
evidence, from his nontestifying codefendant” in order
to “correct defense counsel’s misleading questioning
and argument.” Id. at 357.
The problem is that both courts relied on nothing
other than an unspoken and unwavering belief in the
prosecution’s unproven narrative to conclude that
defense counsel misled the jury. There was no
inherent reason to credit Joseph’s statement as true.
Yet the court did so, emphasizing that “an eyewitness
to the shooting, who knew exactly who was there, had
told the police that McFarland was not present” and
that the prosecution had to “prevent the jury from
reaching the false conclusion that McFarland had
been present at the murder,” because “a person with
immediate
knowledge
of
the
situation—an
eyewitness” had told the police a different version of
the facts. 971 N.E.2d at 357.
The Court of Appeal’s stated reasoning ignored
the fact that the prosecution did not present all of its
own evidence for strategic reasons: it was internally
inconsistent and inconsistent with the prosecution’s
chosen theory of the case. Nevertheless, the defense
could not rely on government-sourced evidence
without running the risk of “misleading” the jury. The

16
court reasoned that, by challenging the government’s
theory, the defense “misled[]” the jury, even though
the validity of that theory was the precise question the
jury was supposed to answer. Id. The court then
compounded its error by allowing the government to
“correct” this alleged misimpression with evidence
that was never tested via the “principal means” our
system recognizes for assessing truth:
crossexamination. Id.
This is backwards. By the plain terms of the
Confrontation Clause, it was Joseph’s statement—
untested by cross-examination—that was unreliable.
Yet under New York’s rule defense counsel must
weigh the value of their own admissible evidence
against the risk of opening the door to the
government’s inadmissible evidence.
The resulting paradox under New York’s rule is
that it is easier for the government to introduce
unreliable statements than for the defense to
introduce reliable evidence—even when the reliable
evidence originated with the government.
The “open the door” doctrine, a familiar fixture of
evidence law, see 21A Charles Alan Wright & Arthur
R. Miller, Federal Practice & Procedure Evidence
§ 5072.1 (2d ed. 2020), has its place in other
situations, such as where a party introduces only the
helpful parts of a single statement. But its application
in this context introduces the very types of evidence

17
the Confrontation Clause was created to exclude in
that the evidence’s reliability is untested. This Court
should reject New York’s version of the doctrine.
II.

New York’s Forfeiture Rule Prevents
The Accused From Presenting A Valid
Defense.

New York’s forfeiture-by-opening-the-door rule
limits the presentation of a valid defense in multiple
specific and overlapping ways. At its core, it forces the
accused to choose between (a) putting forward a valid
defense—oftentimes the sole available defense—only
to have the prosecution respond with testimonial
statements that cannot be confronted, or (b) forfeiting
that defense.
First, the forfeiture-by-opening-the-door rule
deters defense counsel from eliciting helpful,
probative testimony for fear that doing so will
unintentionally open the door. That is because
defense counsel, by presenting relevant evidence,
could invite a ruling allowing the government to
present an accomplice’s statement without the
opportunity to fully explore the accomplice’s bias and
motivation in making it or to test that person’s
memory or observations. New York’s forfeiture-byopening-the-door rule forces the accused to choose
between the right to present a defense and the right
to subject adversarial testimonial statements to crossexamination. And, as here, that means potentially

18
foregoing the right to present the government’s own
evidence, evidence that could exculpate the accused.
As a practical matter, New York’s approach creates a
minefield for counsel in which the only way for the
accused safely to vindicate Confrontation Clause
rights is to remain mute and forego those rights
entirely, nearly ensuring a conviction.
Second, in cases where the defense takes its
chances and opens the door under New York’s version
of that doctrine, the inability to cross-examine those
individuals whose statements are introduced against
the accused prevents juries from assessing the
credibility of important sources of evidence. As this
Court has recognized, many times, the ability to
confront a witness with the witness’s own biases is the
difference between conviction and acquittal. See e.g.,
Napue v. People of State of Ill., 360 U.S. 264, 269
(1959) (“The jury’s estimate of the truthfulness and
reliability of a given witness may well be
determinative of guilt or innocence, and it is upon
such subtle factors as the possible interest of the
witness in testifying falsely that a defendant’s life or
liberty may depend.”).
For example, cross-examination can establish
that a witness is lying, is mistaken, is making
unacknowledged assumptions, neglected to consider
something crucial, is biased, has an ulterior motive for
providing their testimony, or is otherwise unreliable.
Without cross-examination, juries are deprived of the

19
information they need to accurately weigh and assess
the credibility of witnesses, especially those who have
made statements pursuant to plea agreements that
provide significant benefits, including dismissed
charges and reduced sentences. In not giving defense
counsel an opportunity to cross-examine persons who
made testimonial statements of this nature, the New
York rule prevents challenges to their reliability,
which itself presents the jury with a highly
“misleading impression” of the relevant facts. The
lack of effective cross-examination under New York’s
forfeiture-by-opening-the-door rule exposes the jury to
testimony that is often “impure, dubious and tainted
beyond redemption.” Yvette A. Beeman, Accomplice
Testimony Under Contingent Plea Agreements, 72
Cornell L. Rev. 800, 822 (1987) (quotation marks and
citation omitted).
The Confrontation Clause is one of an accused’s
most important tools for challenging the government’s
weighty allegations. It is the primary tool for avoiding
prejudicial error by subjecting witnesses to searching
cross-examination intended to develop fully any
evidence of bias or motive on the witness’s part, or
improper conduct by the prosecution.
Crossexamination allows the accused to lay before the jury
every fact that might in some way influence the
truthfulness and credibility of the witness’s
testimony, facts that the government often chooses to
hide or minimize because they weaken the

20
government’s narrative.
The intent of the
Confrontation Clause was to allow the finder of fact to
resolve inconsistencies and conflicts in the evidence,
as well as to weigh the testimony and determine
witness credibility. However, New York’s forfeitureby-opening-the-door rule removes these safeguards by
preventing the jury from receiving a complete picture
of the credibility and/or bias of the person who made
a testimonial statement.
Third, the forfeiture-by-opening-the-door rule
limits the accused’s ability to challenge perjury by
witnesses or deter prosecutorial abuses. This Court
in Lilly v. Virginia recognized the inherent
unreliability of unchallenged witness statements
noting that “we have over the years ‘spoken with one
voice in declaring presumptively unreliable
accomplices’
confessions
that
incriminate
defendants.’” 527 U.S. 116, 131 (1999) (citation
omitted). And it is well known that statements made
in connection with entering into plea agreements tend
to be unreliable because of the incentive for the
pleading party to shift blame to a co-defendant or
other alleged co-conspirators.
See Accomplice
Testimony Under Contingent Plea Agreements, 72
Cornell L. Rev. 800; Hakeem Ishola, Of Confrontation:
The Right Not to be Convicted on the Hearsay
Declarations of an Accomplice, 1990 Utah L. Rev. 855,
864 (1990) (“an analysis of Supreme Court precedents
on the right to confrontation in cases involving a co-

21
defendant’s or accomplice’s confession must begin
with the presumption that a hearsay statement is
admissible only if its reliability and trustworthiness
are demonstrated”); see also Sinkfield v. Brigano, 487
F.3d 1013, 1017 (6th Cir. 2007) (many “statements
inculpating the declarant and another party are not
always truly self-inculpatory because the statements
are instead intended to shift blame or curry favor”);
United States v. Taylor, 848 F.3d 476, 487 (1st Cir.
2017) (“[t]he fear that inculpatory statements are
unreliable stems largely from the presumption that
such statements are self-serving, offered only to shift
the blame from the declarant to another” (alteration
in original; citation omitted)); Carson v. Peters, 42
F.3d 384, 386 (7th Cir. 1994) (“[p]ortions of
inculpatory statements that pose no risk to the
declarants are not particularly reliable; they are just
garden variety hearsay”). Admitting statements such
as Morris’s allocution, untested by cross-examination,
obscures a witness’s strong incentive to lie or
embellish.
Fourth, the inherent and unmanageable
uncertainty in applying New York’s rule produces
inconsistent outcomes, which further chills
establishment of a valid defense. Whether the
presentation of a defense has created a “misleading
impression” is a highly subjective inquiry for which
courts are afforded substantial discretion. In making
that inquiry, courts frequently accept the

22
government’s chosen trial narrative as true, with little
probing, even when the defense challenges that
narrative with the government’s evidence. This gives
the prosecution the unfair advantage of responding to
admissible evidence—including admissible testimony
elicited from the prosecution’s own witnesses—with
evidence that is inadmissible under not just rules of
evidence but the Constitution as well. Without clear
guideposts for what qualifies as a “misleading” line of
defense, a vindication of the accused’s constitutional
rights turns more on the courtroom to which the case
is assigned than anything else.
III.

New York’s Forfeiture Rule Permits
Unreliable Statements To Be Admitted
Without Cross-Examination.

New York’s forfeiture-by-opening-the-door rule
allows the admission of untested statements that are
often unreliable. The rule frustrates the accused’s
ability to defend themselves against potentially
untruthful or incomplete statements in direct
contravention of the Confrontation Clause’s purpose
of “ensur[ing] the reliability of the evidence against a
criminal defendant” and undermines the truthseeking function of the courts. Maryland v. Craig, 497
U.S. 836, 845 (1990).
The unenviable choice Petitioner faced here—
abandon a valid and effective defense or risk opening
the door to unreliable, untested information—is

23
common in New York. One way the accused often
seeks to establish that the government failed to prove
guilt beyond a reasonable doubt is by eliciting
evidence that the offense was committed by, or
responsibility is otherwise attributable instead to,
another person. That other person is often a codefendant or someone previously accused of
involvement in the same crime. When putting forth a
defense that the government is trying the wrong
person, counsel necessarily elicits evidence, including
through questioning of prosecution witnesses, that
tends to connect another person to the crime or
demonstrate that law enforcement failed to
investigate that avenue adequately.
Often the
prosecution has obtained statements by co-defendants
or other individuals who were involved in committing
the crime. These persons, who often do not expect to
testify at trial, have strong incentives to tell
prosecutors what prosecutors want to hear, especially
when doing so minimizes their own involvement and
the punishment for that involvement. Under New
York’s forfeiture-by-opening-the-door rule, those who
wish to mount an effective defense—or any defense at
all—risk exposing the jury to these potentially false
statements without the opportunity to test their
reliability. See Scott C. Pugh, Checkbook Journalism,
Free Speech, and Fair Trials, 143 U. Pa. L. Rev. 1739,
1770 (1995) (noting that “[c]ross-examination …
minimizes the risk that juries will rely on evidence

24
tainted by the incentives to lie or exaggerate inherent
in plea-bargaining.”).
The facts of this case demonstrate the
unreliability of such statements and the critical need
to exclude them under the Confrontation Clause.
Petitioner’s main defense at trial was that another
individual, Morris, was responsible for the crime. The
undisputed fact that the government itself had
previously accused Morris of committing it, and had
even tried him for the offense, see Pet. App. 16a-17a,
made this a compelling defense, one that counsel no
doubt would have been second-guessed for passing up.
To effectively support this defense, defense counsel
elicited testimony that hours after the shooting the
police had recovered a live cartridge from Morris’s
home that matched the caliber of the purported
murder weapon—a 9 millimeter handgun. See Id.
The government claimed that its own evidence
created a misleading impression because Morris had
pleaded guilty to possessing a different-caliber
handgun. Even though the government did not—and
could not—dispute that the police had recovered a 9
millimeter cartridge from Morris’s home, the
government was allowed to introduce Morris’s plea
allocution, in which he admitted to possessing a .357
revolver at the scene of the shooting, and made no
mention of a 9 millimeter handgun. Id.
New York’s rule stripped Petitioner of his right to
confront Morris with a number of facts. It was in

25
Morris’s interest not to be associated with a 9
millimeter handgun—the murder weapon. And by
pleading guilty to possessing the .357 revolver, Morris
secured his immediate release from prison and a
dismissal of murder charges against him.
These problems are common. The facts of this
case demonstrate that a person who pleads guilty is
highly motivated to say what the government wants
to hear in order to secure a good plea deal—whether
or not this admission presents the entire picture of the
person’s involvement. In fact, in plea allocutions for
cases in New York City that involve multiple accused
individuals, the prosecution not only requires the
person pleading guilty to admit to his or her own
conduct, but also to admit to acting in concert with
others when that is an element of the crime. A person
who pleads guilty knows from the charging documents
that the government thinks particular persons were
also involved. It is all too easy—and sometimes the
only viable option—for someone pleading guilty to
implicate those other co-defendants consistent with
the government’s theory.
After all, these plea
allocutions allow the person entering the guilty plea
to avoid conviction on other more serious charges and
to receive a reduced sentence.
This allocution requirement, memorialized in a
standard manner by many New York criminal courts,
generates inculpatory evidence against co-defendants
in virtually every multi-defendant case that includes

26
at least one guilty plea. However, because the
allocutions are not subjected to adversarial testing,
the underlying motivations and biases behind these
testimonial statements remain latent.
Denying
Confrontation Clause rights in these circumstances
motivates prosecutors to require even more specific
information during allocutions, safe in the knowledge
that the information could be admitted, without being
tested through cross-examination, at the trial of a codefendant who challenges the government’s evidence.
Due to its unreliability, this evidence is exactly
what the Confrontation Clause was designed to
exclude. This Court has acknowledged the inherent
unreliability of co-defendant or co-conspirator
statements that shift or spread blame, and the Court
has found it “highly unlikely” that the presumption of
unreliability can be rebutted for such statements
where, as here, “the government is involved in the
statements’ production, and when the statements
describe past events and have not been subjected to
adversarial testing.” Lilly, 527 U.S. at 137.2 The
Court has repeatedly held, in the context of
accomplice confessions, that “presumptively suspect”

2

Lilly involved a co-defendant’s statement during
interrogation.
Statements made in connection with plea
allocutions are equally, if not more, problematic because
individuals who have chosen to plead guilty often do so with a
favorable outcome at their fingertips, one that can be taken away
at any moment if they fail to comply with the government’s
requests.

27
statements, such as the plea allocution here, “must be
subjected to the scrutiny of cross-examination” to
comply with the Confrontation Clause’s requirements.
Lee v. Illinois, 476 U.S. 530, 541 (1986); Douglas v.
Alabama, 380 U.S. 415, 419 (1965). Moreover, this
Court has also acknowledged the unreliability of
hybrid statements like Morris’s plea allocution:
partially inculpatory and partially seeking to shift the
blame to others. As this Court has explained, “[o]ne
of the most effective ways to lie is to mix falsehood
with truth, especially truth that seems particularly
persuasive because of its self-inculpatory nature.”
Williamson v. United States, 512 U.S. 594, 599–600
(1994) (analyzing reliability of statements to
determine admissibility under Federal Rule of
Evidence 804(b)(3)).
History
further
demonstrates
that
the
Confrontation Clause took aim at these very types of
statements.
The primary evil was ex parte
statements “being used against the prisoner in lieu of
a personal examination and cross-examination of the
witness.” Mattox v. United States, 156 U.S. 237, 242
(1895); see also California v. Green, 399 U.S. 149, 156
(1970) (“It is sufficient to note that the particular vice
that gave impetus to the confrontation claim was the
practice of trying defendants on ‘evidence’ which
consisted solely of ex parte affidavits or deposition
secured by the examining magistrates.”).
The
Confrontation Clause—like the evidentiary hearsay

28
rules—is grounded in the need for reliability. Giles v.
California, 554 U.S. 353, 365 (2008) (The
“Confrontation Clause and the evidentiary hearsay
rule[s] stem from the same roots.” (citation omitted)).
The primary way to ensure reliability is to have the
declarant testify in an adversary proceeding, which is
the basis for the Confrontation Clause’s requirement
that the witness be subjected to cross-examination.
Carveouts to the right of confrontation are
narrowly tailored to types of evidence historically
admitted at common law, such as dying declarations,
Giles, 554 U.S. at 358, and statements by children, see
Ohio v. Clark, 576 U.S. 237, 247–48 (2015). The
circumstances surrounding statements that fall
within these carveouts make them inherently reliable.
See, e.g., id. at 247 (finding that “[s]tatements by very
young children will rarely, if ever, implicate the
Confrontation Clause” because young children “have
little understanding of prosecution”). The exact
opposite is true for the statements of an alleged coconspirator: the circumstances surrounding their
creation make them inherently unreliable.
The constitutional right to confront a codefendant is especially critical both to presenting a
viable defense and demonstrating the unreliability of
co-defendant statements to the jury. New York’s
forfeiture-by-opening-the-door rule frustrates both
goals. By allowing these statements to go untested
through cross-examination, New York’s rule

29
undermines the accused’s ability to present a defense,
in violation of the Sixth Amendment. See, e.g., Lilly,
527 U.S. at 137 (finding that admission of coconspirator’s confession violated the Confrontation
Clause because the statement was not sufficiently
reliable without allowing cross-examination). This
rule also makes it more likely that juries—left to rely
on untested, unreliable statements made by
interested parties without hearing the declarant’s
motive to alter the truth—will get it wrong because
they have been misled.
This undermines the
Confrontation Clause’s purpose:
“to ensure the
reliability of the evidence against a criminal
defendant by subjecting it to rigorous testing in the
context of an adversary proceeding before the trier of
fact.” Craig, 497 U.S. at 845. And it does so by
shielding from cross-examination—the “greatest legal
engine ever invented for the discovery of truth”—a
category of statements whose reliability is heavily
tainted by a strong motive to fabricate. Green, 399
U.S. at 158 (citation omitted).
CONCLUSION
For the reasons stated above and in Petitioner’s
brief, the judgment of the Court of Appeals of New
York should be reversed.

30
Respectfully submitted.
AIMEE CARLISLE
ILONA COLEMAN
DEFNE OZGEDIZ
SAUL ZIPKIN
THE BRONX DEFENDERS
360 East 161st Street
Bronx, NY 10451
ELIZABETH FISCHER
ALICE FONTIER
NEIGHBORHOOD DEFENDER
SERVICE OF HARLEM
317 Lenox Ave
New York, NY 10027
HETTIE POWELL
QUEENS DEFENDERS
118-21 Queens Blvd
Suite 212
Forest Hills, NY 11375

DAVID DEBOLD
Counsel of Record
MATTHEW GUICE AIKEN
TESSA GELLERSON*
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Avenue, N.W.
Washington, D.C. 20036
(202) 955-8500
ddebold@gibsondunn.com
JOEL M. COHEN
NINA MEYER
GIBSON, DUNN & CRUTCHER LLP
200 Park Avenue
New York, NY 10166
LISA SCHREIBERSDORF
BROOKLYN DEFENDER SERVICES
177 Livingston Street,
7th Floor
Brooklyn, NY 11201

SERGIO DE LA PAVA
NEW YORK COUNTY DEFENDER
SERVICE
100 William St
New York, NY 10038

Counsel for Amicus Curiae
* Admitted only in New York; practicing under the supervision
of Principals of the Firm.

June 29, 2021

